OIG Investigative Reports, Greenbelt, MD  June 07, 2011 -  Former Charles County Public School Employee Pleads Guilty to Theft Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR FURTHER INFORMATION CONTACT
AUSA VICKIE E. LEDUC or
MARCIA MURPHY at 410-209-4885
June 7, 2011
FOR IMMEDIATE RELEASE
http://www.usdoj.gov/usao/md
FORMER CHARLES COUNTY PUBLIC SCHOOL EMPLOYEE PLEADS GUILTY TO THEFT SCHEME
Stole Computers, Apple iPods, and other Technology Equipment Purchased Using Federal Funds Intended for the Needs of School Children
Greenbelt, Maryland — Rhayda Barnes-Thomas, age 41, of Accokeek, Maryland, pleaded guilty today to theft involving a federal government program, in connection with a scheme to use federal funds received by her school employer to buy technology items for herself, her family and friends.
The guilty plea was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Steven D. Anderson, Special Agent in Charge of the Mid-Atlantic Region of the Department of Education - Office of Inspector General; and Charles County Sheriff Rex Coffey.
According to Barnes-Thomas' plea agreement, the U.S. Department of Education provides federal funding, known as Title I grants, to public school districts with enrollment of low-income families to help ensure that all children meet appropriate academic standards. Typical uses of Title I funding include purchasing equipment for classroom education. According to the statement of facts, since approximately 2006, Barnes-Thomas has been the Title I coordinator for the Charles County (Maryland) Public Schools (the County Schools), assigned to manage the County Schools' Title I funding, including overseeing the purchases of technology equipment for use in classrooms paid for with federal funds.
Barnes-Thomas admitted that between 2009 and January 2011, Barnes-Thomas stole more than $5,000 of property purchased using federal funds. According to her guilty plea, in October 2010, school officials began investigating missing computers belonging to the County Schools that had been purchased using Title I funds. Shortly thereafter, senior school officials performed an audit which revealed that Barnes-Thomas had used Title I funds to purchase multiple Nintendo Wii video game consoles, Nintendo Wii games, Sony PlayStation 3 consoles, Apple products (including iPods, iPads, and Macbook computers) and televisions. Documents purporting to contain signatures of Barnes-Thomas' supervisor approving these purchases had been forged.
On June 21, 2010, Barnes-Thomas sold an Apple iPad that had been purchased with Title I funds to her hairdresser for $200 and gave another Apple iPad purchased with Title I funds to her daughter, who in turn sold it for $100. An internal audit by the County Schools identified more than 200 items purchased with Title I funds, at a cost of over $100,000, that are presently unaccounted for. The vast majority of these items were purchased under Barnes-Thomas' name.
According to statement of facts, in January and March 2011, law enforcement agents executed two search warrants at the residence of Barnes-Thomas and a third search warrant at the home of her daughter. Agents seized multiple items purchased using Title I funds that had been inappropriately kept for personal use, including: an Apple MacBook Pro, two televisions, three Apple iPods, a Nintendo Wii game system and a GPS device.
On March 11, 2011, Barnes-Thomas participated in a voluntary interview with law enforcement in which she denied that the Apple Macbook computer found with a family member was purchased with Title I funding. Barnes-Thomas admitted that the statement was false and that she knew it was false when she made it. Barnes-Thomas also provided a receipt purporting to establish that she had legitimately purchased one of the televisions seized from her home. In fact, Barnes-Thomas had fraudulently altered the receipt and knew the receipt was altered when she provided it to law enforcement agents.
Barnes-Thomas faces a maximum sentence of 10 years in prison for theft. U.S. District Judge Roger W. Titus has scheduled sentencing for July 29, 2011 at 9:00 a.m.
United States Attorney Rod J. Rosenstein praised the Department of Education - OIG and the Charles County Sheriff's Office for their work in the investigation. Mr. Rosenstein thanked Assistant United States Attorney Jonathan Su, who is prosecuting the case.
Top
Printable view
Last Modified: 06/13/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov